September 25, 2008

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT:        Audit Report – Postal Vehicle Service Transportation Routes – Northern
                Virginia Processing and Distribution Center
                (Report Number NL-AR-08-006)

This report presents the results of our audit of the Northern Virginia Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation routes
(Project Number 08XG020NL000). Our objective was to determine whether the facility’s
PVS vehicle operations were effective and economical. The report is the fifth in a series
of reports responding to a request from the Postal Service’s Vice President, Network
Operations, for audit work in this area. Click here to go to Appendix A for additional
information about this audit.

Conclusion

Northern Virginia P&DC officials could more effectively manage PVS transportation
processes and schedules. Once this occurs, we estimate officials could save more than
$8 million over 10 years. We also identified other matters regarding mail and equipment
not consistently being restrained during transportation, and the need to develop plans to
effectively replace aging PVS vehicles.

Excess Workhours and Associated Cost Reductions

Northern Virginia P&DC officials were not effectively managing PVS processes and
conducting schedule reviews. As a result, schedules were inefficient and included
unassigned driver time, duplicate trips, and unfilled trips that could be consolidated.
We concluded that officials can remove 20,017 excess workhours from existing PVS
schedules and reduce related fuel costs and damage claims, thereby saving about $8
million. Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Capital Metro Area Operations:

1. Ensure that managers follow prescribed fleet management procedures for making
   Postal Vehicle Service schedules effective, including the use of vehicle utilization
   reviews.




      (b) (6)
Postal Vehicle Service Transportation Routes – Northern                                                      NL-AR-08-006
 Virginia Processing and Distribution Center



2. Verify elimination of the 18,006 workhours already agreed to by local and area
   management from Postal Vehicle Service trip schedules.

3. Reassess the 2,011 workhours and eliminate the workhours as indicated by the
   reassessment, or document the reasons for retaining the workhours.

Management’s Comments

Management agreed with our findings and recommendations. Management stated they
are planning to review all of the Capital Metro Area’s PVS operations by June 2009 and
plan to formally review each plant’s operations in alternating years. Further,
management plans to provide field employees with training in PVS scheduling.
Management concurred with 18,006 of the workhour savings we identified and stated
that by December 2008, a Capital Metro Area team will coordinate actions to begin
capturing that savings. Management did not concur with the potential savings of 2,011
workhours we identified, and will reevaluate that additional savings. Management’s
comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1, 2, and 3, and the corrective actions
should resolve the issues identified in the report. Management did not specifically
address the monetary impact amount in their response, but informed us of their plans to
coordinate the capture of savings of 18,006 workhours by December 1, 2008, and to
reevaluate the additional 2,011 workhours of potential savings.

Other Matters – Restraint of Mail and Equipment

We observed mail and equipment being transported on Northern Virginia P&DC PVS
transportation that was not being consistently restrained according to established safety
policies.1 Improperly restrained mail and equipment can lead to accidents, property
damage, undue liability, and unwarranted costs for the Postal Service. Click here to go
to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Capital Metro Area Operations:

4. Ensure that Northern Virginia Processing and Distribution Center management issue
   a memorandum to drivers enforcing load restraint policies for Postal Vehicle Service
   trips and provide oversight of load restraint processes.


1
  Logistics Order, LO200407, dated April 16, 2004, prescribes policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, it notes that “All vehicles transporting containers and pallets must
have the load secured with two restraining devices approximately every ten (10) feet.”




                                                              2
Postal Vehicle Service Transportation Routes – Northern                         NL-AR-08-006
 Virginia Processing and Distribution Center



Management’s Comments

Management agreed with our finding and recommendation. Management provided a
copy of a September 2008 memorandum that Northern Virginia P&DC management
issued to drivers emphasizing load restraint policies. Management also reissued a copy
of its logistics order regarding load restraint procedures and expectations to the plant
manager.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the report.

Other Matters – Aging PVS Tractor Fleet

During our audit, we determined that about 28 percent of the Northern Virginia P&DC’s
PVS mail hauling tractor fleet was nearing the end of its expected service life. Because
vehicles required considerable maintenance investment to remain in service, replacing
them with newer equipment, including surplus vehicles, may be more cost-effective.
Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Capital Metro Area Operations:

5. Analyze the use of the Northern Virginia Processing and Distribution Center’s Postal
   Vehicle Service fleet tractors that are nearing the end of their expected service lives,
   and develop an economical requirement-based plan for their replacement, including
   possible replacement with surplus vehicles from other facilities.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that
they have forwarded the recommendation to Postal Service Headquarters Surface
Operations for follow-up.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that they can be
closed.




                                                    3
Postal Vehicle Service Transportation Routes – Northern                      NL-AR-08-006
 Virginia Processing and Distribution Center




We will report $8,009,363 of monetary impact of funds put to better use in our
Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Cynthia F. Mallonee
    Lynn Forness
    Katherine S. Banks




                                                    4
Postal Vehicle Service Transportation Routes – Northern                                  NL-AR-08-006
 Virginia Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

U.S. Postal Service transportation includes both nationwide network transportation
between cities and major facilities and delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities such as bulk mail centers or
P&DCs in or near metropolitan areas. Operations are normally conducted within
50 miles of a base facility at 162 Postal Service facilities. PVS drivers log in a total of
about 150 million miles every year. Because PVS operations are local, they are
managed at the facility level under guidance from district, area, and headquarters
transportation officials.

PVS is capital- and personnel-intensive. PVS capital assets include 2,289 cargo vans,
2,338 tractors, and 4,456 trailers. Employees service and repair these vehicles at
321 Postal Service vehicle maintenance facilities (VMF) or VMF2 auxiliaries, and local
commercial garages nationwide. PVS currently involves about 10,000 employees,
including 8,482 uniformed drivers, 621 administrative support personnel, and 963
managers. The American Postal Workers Union represents PVS drivers and support
personnel.




                           Northern Virginia P&DC PVS cargo van at a commercial mailer
                                               facility, June 11, 2008.


PVS operations typically include:

           Transportation to and from major facilities or local post offices.

2
    A VMF Auxiliary is an extension of a VMF.



                                                       5
Postal Vehicle Service Transportation Routes – Northern                                     NL-AR-08-006
 Virginia Processing and Distribution Center


        Transportation to and from major commercial business mailers.
        Yard operations, defined as the movement of trailers and equipment in or around
        a facility yard.

OBJECTIVES, SCOPE, AND METHODOLOGY

The Vice President, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the Northern Virginia P&DC in the
Postal Service Capital Metro Area. The objectives of our audit were to determine
whether PVS operations were effective and economical.

Using Postal Service computer-generated data and other records, we analyzed
114 Northern Virginia P&DC driver schedules, identified 182,984 workhours associated
with those schedules, and evaluated individual trips and trip load volume. We
conducted the analysis to determine whether management could reduce workhours and
labor costs. We analyzed driver assignments and determined whether drivers made
duplicate or unproductive trips.

During our work, we visited the Northern Virginia P&DC, other regional facilities, and
local post offices. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.




                 PVS tractor-trailers and cargo vans at the Northern Virginia P&DC docks,
                                              March 12, 2008.


We evaluated the type of mail carried, considered on-time service standards, and
visited major commercial business mailers. We examined the cost of PVS operations,




                                                    6
Postal Vehicle Service Transportation Routes – Northern                               NL-AR-08-006
 Virginia Processing and Distribution Center


including the cost of PVS personnel, fuel, and damage claims. We identified
unscheduled time and trip duplications and analyzed potential trip consolidations.

We conducted this performance audit from January through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 12, 2008, and
included their comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several data and other weaknesses that limited our work.
For example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhour and cost reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the Vice President, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the chart below,
since March 2007, we have issued four audit reports that identified labor and other
potential savings exceeding $26.3 million. Management agreed with all of our
recommendations.



                                               Report Number     Final Report        Monetary
              Report Title                                           Date             Impact
                                                                                     (millions)
Postal Vehicle Service Transportation Routes
                                                 NL-AR-07-003     March 30, 2007        $7.3
– Memphis Processing and Distribution Center
Postal Vehicle Service Transportation Routes
                                                 NL-AR-07-006   September 21, 2007      4.9
– Los Angeles Bulk Mail Center
Postal Vehicle Service Transportation Routes
– Milwaukee Processing and Distribution          NL-AR-07-007   September 27, 2007      4.0
Center
Postal Vehicle Service Transportation Routes
– San Francisco Processing and Distribution      NL-AR-08-003     March 26, 2008        10.1
Center


Total                                                                                  $26.3



                                                    7
Postal Vehicle Service Transportation Routes – Northern                                              NL-AR-08-006
 Virginia Processing and Distribution Center


                                APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

The Northern Virginia P&DC could more effectively manage PVS transportation
processes and schedules to ensure efficiency. We found PVS schedules contained:

        Unassigned time when drivers were not needed for a specific trip or related
        activity.

        Duplicate trips.

        Unproductive trips when loads were not full and could have been consolidated.

This resulted because managers were not routinely conducting PVS schedule reviews
as required. Given the dynamic and ever-changing transportation environment, to
maintain the effectiveness and efficiency of PVS operations, the Postal Service requires
management to perform vehicle utilization reviews at least annually. 3 According to
Northern Virginia P&DC management, this type of review had not been performed.
However, officials made us aware of a zero-base efficiency review that was performed
in 2007.4 Although the zero-base review was performed, inefficiencies still existed in
schedules.

We concluded the Northern Virginia P&DC could reduce workhours by 20,017 and save
about $8.0 million over 10 years without negatively affecting service. More than 89
percent of the potential savings would be achieved through personnel workhour
reductions; however, the Postal Service would also realize fuel cost and damage claim
savings, as depicted in Table 1 below.




3
  Handbook PO-701, Fleet Management, March 1991, Section 23, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
4
  In May 2007, at the request of plant management, a team of area and headquarters transportation specialists
reviewed the Northern Virginia P&DC’s PVS operations. The intent of this review was to baseline transportation
needs; officials referred to this review as “zero-base.”



                                                         8
Postal Vehicle Service Transportation Routes – Northern                                                 NL-AR-08-006
 Virginia Processing and Distribution Center



                                            Table 1
                    Potential Savings – Personnel, Fuel, and Damage Claims

                                                                                 10-Year Total
                           Fiscal Year (FY) 2009            FY 2010              (FYs 2009 to
                                  5
      Cost Category          Total (Phased in)           (Annual) Total              2018)             Percentage
     Personnel                            $407,920               $804,942              $7,143,524            89.2
     Fuel                                    57,584                 56,310                521,784             6.5
     Damage Claims                           37,970                 37,130                344,055             4.3

       Total                              $503,474               $898,382              $8,009,363           100.0


Throughout our audit, we coordinated with local transportation managers, independently
evaluated planned schedule changes from the zero-base review, and proposed
schedule realignments. Management reviewed our proposals in conjunction with their
own assessment of operational requirements.

As a result of this collaboration, local and area officials agreed to remove a total of
18,006 excess workhours from their PVS schedules; 13,350 of these workhours were
related to our independent evaluation of planned schedule changes. Although
management agreed to only 18,006 of the 20,017 workhours we recommended, we
believe the remaining 2,011 workhours could produce savings without jeopardizing
on-time performance.

Other Matters – Restraint of Mail and Equipment

During our observations of PVS vehicles being loaded and unloaded at the P&DC, we
consistently observed rolling stock of mail and equipment being secured with single,
instead of required double, restraints at the ends of their loads. Improperly restrained
postal mail and equipment (as shown in the poster6 below) can lead to accidents,
damage to property, undue liability, and unwarranted costs for the Postal Service.




5
    The FY 2009 figure is conservative to allow for phase-in of workhour reductions during the year.
6
    U.S. Postal Service, Poster 173, PSN: 7690-07-00-4341, November 2004.




                                                            9
Postal Vehicle Service Transportation Routes – Northern                                                  NL-AR-08-006
 Virginia Processing and Distribution Center




Other Matters – Aging PVS Tractor Fleet

We concluded that about 28 percent of the Northern Virginia P&DC’s PVS mail hauling
vehicle fleet were nearing the end of their expected service life as of March 2008. We
found that 13 of the single- and double-axle tractors used for PVS transportation had
average ages of 8 years and average odometer readings of more than 310,000 miles.
(See Table 2 below for further details.) According to plant management, these tractors
are vital to the success of their PVS operations but are beginning to require
considerable maintenance investments to remain in service.7 It may be more cost
effective to replace the vehicles with newer equipment, including surplus vehicles.

                                                  Table 2
                                             PVS Tractor Details

                                                            Average
                                                            Odometer
                                                            Reading
                               Total          Average        (March
        Make/Model           Reviewed           Age           2008)           Tractor Description/Year
           3105                 10               8           310,238            Single Axle Mack 99
            3204                  3               8            357,544         Tandem Axle Mack 99


7
  In April 2008, we learned that transmissions in several of these tractors were being replaced, at considerable cost to
the Postal Service.



                                                          10
Postal Vehicle Service Transportation Routes – Northern                    NL-AR-08-006
 Virginia Processing and Distribution Center



We also discussed this issue with the Postal Service Manager of Vehicle Operations,
Operations Support and learned that VMFs must keep these vehicles in safe working
order while economic decisions are made regarding replacements. During the Postal
Service’s last major tractor procurement in 2004, these tractors did not qualify for
replacement, based in part on expected service lives, but they now qualify.




                                                   11
Postal Vehicle Service Transportation Routes – Northern     NL-AR-08-006
 Virginia Processing and Distribution Center


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                   12
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   13
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   14
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   15
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   16
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   17
Postal Vehicle Service Transportation Routes – Northern   NL-AR-08-006
 Virginia Processing and Distribution Center




                                                   18
